AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
 COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
   OHIO BUREAU OF CRIMINAL IDENTIFICATION
              AND INVESTIGATION
                LONDON, OHIO


           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


          Audit Report GR-50-11-007
               September 2011
 AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING COMBINED
            DNA INDEX SYSTEM ACTIVITIES AT THE
          OHIO BUREAU OF CRIMINAL IDENTIFICATION
                    AND INVESTIGATION
                      LONDON, OHIO

                               EXECUTIVE SUMMARY

      The Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Ohio Bureau of
Criminal Identification and Investigation Laboratory (Laboratory) in London,
Ohio.

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.

OIG Audit Objectives

      Our audit generally covered the period from October 2008 through
October 2010. The objectives of our audit were to determine if: (1) the
Laboratory was in compliance with the NDIS participation requirements;
(2) the Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) the Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS.

      Our review determined the following.

      •   The Laboratory complied with the NDIS participation requirements
          we reviewed. Specifically, we found that the Laboratory maintained
          adequate security over its facilities and CODIS servers, submitted
          the required background information on CODIS users to the FBI,
          kept records showing CODIS users were properly trained, and were
          timely in resolving the NDIS matches we reviewed.

      •   The Laboratory generally complied with the QAS we reviewed.
          Specifically, we found that the Laboratory had adequate laboratory
          security policies and conducted annual site visits of its contracted
          laboratory.

      •   We reviewed 100 of the 4,510 forensic profiles the Laboratory had
          uploaded to NDIS as of September 22, 2010. Of the 100 forensic
          profiles sampled, 4 were unallowable for inclusion in NDIS. The
          profiles were either missing supporting information to prove they
          were allowable for upload to NDIS, belonged to the victim, or could
          not be connected to the crime scene. The Laboratory removed all
          four profiles from NDIS. Because all four unallowable profiles were
          processed by the Laboratory prior to December 2003, it appears the
          Laboratory is now following procedures to prevent entry of
          unallowable profiles into CODIS. The remaining 96 profiles we
          reviewed were complete, accurate, and allowable for inclusion in
          NDIS.

      The results of our audit are discussed in detail in the findings section
of the report. Our audit objectives, scope, and methodology are detailed in
Appendix I of the report, and the audit criteria are detailed in Appendix II.



                                      - ii -
      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable.




                                    - iii -
                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1
   Background ..................................................................................... 1
   OIG Audit Objectives ........................................................................ 1
   Legal Foundation for CODIS ............................................................... 1
   CODIS Structure .............................................................................. 2
   Laboratory Information ..................................................................... 6

FINDINGS AND RECOMMENDATIONS................................................ 7
   I.    Compliance with NDIS Participation Requirements .......................... 7
   II.   Compliance with the Quality Assurance Standards .......................... 9
   III. Suitability of Forensic DNA Profiles in CODIS Databases................ 12

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 15

APPENDIX II: AUDIT CRITERIA ..................................................... 18
   NDIS Participation Requirements ...................................................... 18
   Quality Assurance Standards ........................................................... 18
   Office of the Inspector General Standards ......................................... 20

APPENDIX III: AUDITEE RESPONSE .............................................. 18

APPENDIX IV: FEDERAL BUREAU OF INVESTIGATION
                RESPONSE ......................................................... 22
                                 INTRODUCTION


      The Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Ohio Bureau of
Criminal Identification and Investigation Laboratory (Laboratory) in London,
Ohio.

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
                         2
or unidentified persons. The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

       Our audit generally covered the period from November 2008 through
October 2010. The objectives of our audit were to determine if: (1) the
Laboratory was in compliance with the National DNA Index System (NDIS)
participation requirements; (2) the Laboratory was in compliance with the
Quality Assurance Standards (QAS) issued by the FBI; and (3) the
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS. Appendix I contains a detailed
description of our audit objectives, scope, and methodology, while the
criteria used to conduct our audit are presented in Appendix II.

Legal Foundation for CODIS

      The FBI began the CODIS program as a pilot project in 1990. The
DNA Identification Act of 1994 (Act) authorized the FBI to establish a
national index of DNA profiles for law enforcement purposes. The Act, along


       2
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
with subsequent amendments, has been codified in a federal statute
(Statute) providing the legal authority to establish and maintain NDIS. 3

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by participating states, (2) the
State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories within
the state and state offenders, and (3) the Local DNA Index System (LDIS) is
used by local laboratories. DNA profiles originate at the local level and then
flow upward to the state and, if allowable, national level. For example, the
local laboratory in the Palm Beach County, Florida, Sheriff’s Office sends its

      3
          42 U.S.C.A. § 14132 (2006).


                                        -2-
profiles to the state laboratory in Tallahassee, which then uploads the
profiles to NDIS. Each state participating in CODIS has one designated SDIS
laboratory. The SDIS laboratory maintains its own database and is
responsible for overseeing NDIS issues for all CODIS-participating
laboratories within the state. The graphic below presents an example of how
the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office



National DNA Index System

      NDIS is the highest level in the CODIS hierarchy and enables the
laboratories participating in the CODIS program to electronically compare
DNA profiles on a national level. NDIS does not contain names or other PII
about the profiles. Therefore, matches are resolved through a system of
laboratory-to-laboratory contacts. Within NDIS are seven searchable indices
discussed below.

      •   Convicted Offender Index contains profiles generated from persons
          convicted of qualifying offenses. 4


      4
        The phrase “qualifying offenses” is used here to refer to local, state, or federal
 crimes that require a person to provide a DNA sample in accordance with applicable laws.



                                              -3-
      •   Arrestee Index is comprised of profiles developed from persons who
          have been arrested, indicted, or charged in an information with a
          crime.

      •   Legal Index consists of profiles that are produced from DNA
          samples collected from persons under other applicable legal
          authorities. 5

      •   Forensic Index profiles originate from, and are associated with,
          evidence found at crime scenes.

      •   Missing Person Index contains known DNA profiles of missing
          persons and deduced missing persons.

      •   Unidentified Human (Remains) Index holds profiles from
          unidentified living individuals and the remains of unidentified
          deceased individuals. 6

      •   Relatives of Missing Person Index is comprised of DNA profiles
          generated from the biological relatives of individuals reported
          missing.

      Although CODIS is comprised of multiple indices or databases, the two
main functions of the system are to: (1) generate investigative leads that
may help in solving crimes, and (2) identify missing and unidentified
persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

      In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. Those
persons may be identified through matches between indices in CODIS, such

      5
        An example of a Legal Index profile is one from a person found not guilty by
 reason of insanity who is required by the relevant state law to provide a DNA sample.
      6
         An example of an Unidentified Human (Remains) Index profile from a living person
 is a profile from a child or other individual who cannot or refuses to identify themselves.


                                          -4-
as through matches between the profiles in the Missing Persons Index and
the Unidentified Human (Remains) Index. Identifications may also be
generated through matches between the Unidentified Human (Remains)
Index and the Relatives of Missing Persons Index. The profiles within the
Missing Persons and Unidentified Human (Remains) Indices may also be
vetted against the Forensic, Convicted Offender, Arrestee, and Legal Indices
to provide investigators with leads in solving missing and unidentified
persons cases.

State and Local DNA Index System

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS, but NDIS regulations do not authorize the upload of
that profile to the national level.

      The utility of CODIS relies upon the completeness, accuracy, and
quantity of profiles that laboratories upload to the system. Incomplete
CODIS profiles are those for which the required number of core loci were not
tested or do not contain all of the DNA information that resulted from a DNA
analysis and may not be searched at NDIS. 7 The probability of a false match
among DNA profiles is reduced as the completeness of a profile increases.
Inaccurate profiles, which contain incorrect DNA information or an incorrect
specimen number, may generate false positive leads, false negative
comparisons, or lead to the misidentification of a sample. CODIS becomes
more useful as the quantity of DNA profiles in the system increases because
the potential for additional leads rises. However, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent

      7
          A “locus” is a specific location on a chromosome. The plural form of locus is loci.


                                             -5-
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

      The audited Laboratory participates in the CODIS program as both a
State DNA Index System Laboratory and Local DNA Index System
Laboratory. The Laboratory began using DNA to process criminal cases in
1997 and started uploading profiles to NDIS in 2001. The Laboratory
performs analysis on both convicted offender and forensic samples.
However, our audit focused on the analysis of forensic profiles. The
Laboratory contracted with an outside laboratory for the analysis of forensic
samples; from 2008 through 2010, 2,807 profiles were outsourced for
analysis. We verified that the Laboratory received its last accreditation by
the American Society of Crime Laboratory Directors/ Laboratory
Accreditation Board (ASCLD/LAB) in 2007 and will be eligible for
reaccreditation in 2012.




                                     -6-
                FINDINGS AND RECOMMENDATIONS


      I. Compliance with NDIS Participation Requirements

      The Laboratory complied with the NDIS participation
      requirements we reviewed.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

      We found that the Laboratory complied with the NDIS participation
requirements we reviewed. Specifically, we found that the Laboratory
maintained adequate security over its facilities and CODIS servers,
submitted the required background information on CODIS users to the FBI,
kept records showing CODIS users were properly trained, and were timely in
resolving the NDIS matches we reviewed. The results of our audit are
described in more detail below.

      •   We interviewed the Backup CODIS Administrator and conducted a
          walk-through tour of the building and the Laboratory. 8 We
          identified no significant concerns regarding the Laboratory’s
          procedures for securing the CODIS server or the Laboratory’s
          facilities.

      •   We interviewed the CODIS Administrator to determine that
          appropriate staff have received a copy of the NDIS procedures
          manual and measures have been taken to ensure personnel
          understand and abide by the manual. We also interviewed two
          CODIS users and determined that they understood NDIS
          procedures and could access the procedures via the Laboratory’s
          online system.


      8
         We interviewed the Backup CODIS Administrator because the CODIS Administrator
was out of the office at the time of our audit.


                                        -7-
     •   We verified with the FBI that all Laboratory CODIS users have
         completed the 2010 DNA Records Acceptable at NDIS training.

     •   The Laboratory is required to submit certain background and
         security information to the FBI for each CODIS user. We verified
         that the Laboratory submitted the required information to the FBI.

     •   We interviewed the Laboratory’s Quality Assurance Coordinator and
         determined the Laboratory was in compliance with NDIS
         requirements for the maintenance of personnel records.

     •   We reviewed a sample of 10 NDIS matches and determined that
         each match was confirmed by the Laboratory in a timely manner,
         and when applicable, the investigators were notified.

Conclusion

       We found the Laboratory to be in compliance with all areas of NDIS
participation requirements that we reviewed. We made no
recommendations concerning our review of NDIS participation requirements.




                                    -8-
       II. Compliance with the Quality Assurance Standards

       The Laboratory complied with the Forensic Quality Assurance
       Standards we reviewed.

       During our audit, we considered the Forensic Quality Assurance
Standards (QAS) issued by the FBI. 9 These standards describe the quality
assurance requirements that the Laboratory must follow to ensure the
quality and integrity of the data it produces. We also assessed the most
recent QAS review that the laboratory underwent. 10 The QAS we reviewed
are listed in Appendix II.

Results of the OIG Audit

     We found that the Laboratory complied with the Forensic QAS tested.
These results are described in more detail below.

       •    The Laboratory underwent a QAS review in each of the last
            2 calendar years as required by the QAS for laboratory reviews. In
            May 2010, the Laboratory underwent a QAS review by internal
            reviewers. In March 2009, the laboratory underwent a QAS review
            by external reviewers.

       •    We reviewed the most recent QAS reports provided by the
            Laboratory’s Quality Assurance Coordinator. The FBI’s QAS Review
            Document was used to conduct both the internal and external
            reviews. We contacted the FBI and verified that at least one
            reviewer on the internal and external audit teams had successfully
            completed the FBI QAS Review training course. The reviewers
            reported two instances of non-compliance in the 2009 external
            report and three instances of non-compliance in the 2010 internal
            report. According to the 2009 external review report, the
            Laboratory failed to follow documented procedures that minimize
            loss contamination and/or deleterious change of evidence, and the

       9
         Forensic Quality Assurance Standards refers to the Quality Assurance Standards
for Forensic DNA Testing Laboratories, effective July 1, 2009.

       10
            The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.


                                           -9-
    Laboratory failed to follow written procedures for taking corrective
    action whenever proficiency testing discrepancies and/or casework
    errors were detected. According to the 2010 internal review report,
    the Laboratory failed to follow written procedures for cleaning and
    decontaminating facilities and equipment, failed to follow written
    analytical procedures approved by the technical leader, and failed
    to follow a documented program for conducting performance checks
    and calibrating equipment and instruments. We reviewed the
    corrective action taken by the Laboratory and determined that it
    established procedures as appropriate and adequately addressed
    the 2009 external and 2010 internal QAS reviewers’ findings.

•   The QAS require that the Laboratory submit external QAS review
    reports to the NDIS Custodian within 30 days of the Laboratory
    receiving them. The Laboratory’s Quality Assurance Coordinator
    stated that the latest external review report was submitted to the
    NDIS Custodian within 30 days of the report’s issuance. However,
    the Laboratory did not maintain documentation of when it received
    the report. We reviewed the latest external review reports dated
    April 2008 and March 2009 and contacted the NDIS Audit Review
    Panel to determine when the reports were received by the NDIS
    Custodian. We found that the two latest reports were received in
    November 2008 and July 2009, respectively. However, because the
    Laboratory did not have a record of when it received the reports,
    we were not able to verify compliance with the 30 day standard.

•   During our audit, we reviewed the prior years’ audit reports to
    ensure there were no repeat findings. We found that one finding in
    the 2010 internal review report was also a finding in the 2008
    external report. We reviewed the corrective action taken to resolve
    this finding related to conducting performance checks and
    calibrating equipment and instruments and found that the
    Laboratory contested the finding in the 2008 external report. The
    Laboratory addressed this same finding in the 2010 internal report
    and took corrective action by specifying a standard set of check
    logs and responsibilities. Upon reviewing the corrective action
    taken by the Laboratory, we found that the Laboratory adequately
    addressed the external and internal QAS reviewers’ findings.

•   We asked the reviewer who conducted the most recent external
    QAS review to certify that she had no impairments to her
    independence. The QAS reviewer provided us with this certification.




                              - 10 -
     •   We toured the Laboratory building and interviewed the Backup
         CODIS Administrator, and we determined that the facility appeared
         to have adequate physical access controls in place.

     •   We interviewed the Backup CODIS Administrator and reviewed
         written policies to determine that the Laboratory appeared to have
         adequate procedures in place to ensure the integrity of physical
         evidence.

     •   We interviewed the Backup CODIS Administrator and reviewed
         policies and practices regarding the separation of known and
         unknown samples during the analysis process. We determined that
         the policies and procedures appeared to be adequate.

     •   We interviewed the Laboratory’s Quality Assurance Coordinator and
         reviewed applicable procedures, and we determined that the
         Laboratory appeared to be in compliance with standards governing
         the retention of samples after analysis.

     •   We contacted Laboratory officials and found that although the
         Laboratory is not currently outsourcing the analysis of profiles, the
         Laboratory did outsource the analysis of profiles during the past 2
         years. We obtained the contracted laboratory’s latest QAS review
         and accreditation materials and found no instances of
         noncompliance.

     •   We interviewed the Laboratory’s Quality Assurance Coordinator and
         determined that the Laboratory has procedures requiring review of
         100 percent of outsourced work, including raw data and values of
         loci.

     •   We interviewed the Laboratory’s Quality Assurance Coordinator and
         reviewed the Laboratory’s site visit reports and confirmed that the
         Laboratory had performed annual site visits of a laboratory to which
         it outsourced the analysis of some DNA samples.

Conclusion

     We made no recommendations concerning our review of Quality
Assurance Standards.




                                    - 11 -
      III. Suitability of Forensic DNA Profiles in CODIS Databases

      Of the 100 forensic profiles we reviewed, 96 profiles were
      complete, accurate, and allowable for inclusion in NDIS. We
      identified four profiles that were not allowable for inclusion in
      NDIS. The profiles were either missing supporting information to
      sustain their allowability in NDIS, belonged to the victim, or
      could not be connected to the crime scene.

       We reviewed a sample of the Laboratory’s forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 11 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results and that the values at each locus match those
identified during analysis. Our standards are described in more detail in
Appendix II of this report.

       The NDIS operational procedures establish the DNA data acceptance
standards by which laboratories must abide. These procedures prohibit a
laboratory from uploading forensic profiles to NDIS that clearly match the
DNA profile of the victim or another known person, unless the known person
is a suspected perpetrator. The NDIS procedures we reviewed are listed in
Appendix II of this report.

Results of the OIG Audit

       We selected a random sample of 100 profiles out of the 4,510 forensic
profiles the Laboratory had uploaded to NDIS as of September 22, 2010. Of
the 100 forensic profiles sampled, we found 4 were unallowable for upload to
NDIS. The remaining 96 profiles sampled were complete, accurate, and
allowable for inclusion in NDIS. The specific exceptions we identified are
explained in more detail below.

OIG Sample Number CA-25

      The Laboratory was unable to provide information on Sample
Number CA-25; thus we were unable to determine the allowability,
completeness, and accuracy of this profile. According to the CODIS
Administrator, Sample Number CA-25 was from a rape case from 1990. In
prior years, the Laboratory’s procedures for this type of crime required that


      11
         When a laboratory's universe of DNA profiles in NDIS exceeds 1,500, our sample
 is taken from SDIS rather than directly from NDIS. See Appendix I for further description
 of the sample selection.


                                         - 12 -
the case be purged after 10 years in the system. All case notes and crime-
related information on the case were destroyed, and thus there is insufficient
documentation to support the profile’s inclusion in NDIS. The CODIS
Administrator stated that in recent years the Laboratory implemented
retention procedures to ensure case notes and related information for rape
cases that are entered into CODIS are not destroyed. The Laboratory now
marks the case file for all CODIS rape cases with a checkmark to ensure
supporting documentation is not destroyed after the 10-year period. Once
we informed the Laboratory of the issue related to sample CA-25, the
Laboratory deleted the profile from CODIS.

OIG Sample Number CA-62

      Sample Number CA-62 was taken from a pillow belonging to a victim.
Information in the case file did not indicate that a crime had occurred and
that an elimination standard was taken from the victim. We informed the
Laboratory of this issue and the Laboratory deleted this profile from CODIS.

OIG Sample Number CA-71

       According to the accompanying police report, sample Number CA-71
was taken from money “circulating” at a store near a crime scene. The
police report also indicated that the suspect may have brought the money
into the store. Although the specimen did not come from a crime scene, it
was entered into CODIS. We informed the Laboratory of this issue, and the
Laboratory deleted this profile from CODIS.

OIG Sample Number CA-93

      According to case file information, sample CA-93 was taken from the
“clothing of a suspect.” The information in the case file did not indicate that
the specimen was collected from a crime scene. The profile had been
technically reviewed for accuracy and was otherwise complete. However, it
should not have been uploaded because there was not sufficient information
to indicate that the specimen came from the crime scene. We informed the
Laboratory of this issue, and the Laboratory deleted this profile from CODIS.

Conclusion

       Out of the 100 profiles we reviewed four were unallowable for inclusion
in NDIS. The remaining profiles were complete, accurate, and allowable for
inclusion in NDIS. All four of the unallowable profiles in our sample were
processed by the Laboratory prior to December 2003. The Backup CODIS
Administrator explained that early on when NDIS was a new tool, the


                                    - 13 -
Laboratory uploaded nearly everything into the system. It appears that the
Laboratory has revised its procedures to ensure only allowable profiles are
entered into CODIS. We made no recommendations concerning our review
of Forensic DNA profiles.




                                   - 14 -
                                                                             APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from November 2008 through
October 2010. The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the NDIS participation requirements;
(2) Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. To accomplish the objectives of the audit, we:

       •    Examined internal and external Laboratory review reports and
            supporting documentation for corrective action taken, if any, to
            determine: (a) if the Laboratory complied with the QAS, (b) whether
            repeat findings were identified, and (c) whether recommendations
            were adequately resolved.12

            In accordance with the QAS, the internal and external laboratory
            review procedures are to address, at a minimum, a laboratory’s
            quality assurance program, organization and management, personnel
            qualifications, facilities, evidence control, validation of methods and
            procedures, analytical procedures, calibration and maintenance of
            instruments and equipment, proficiency testing of analysts, corrective
            action for discrepancies and errors, review of case files, reports,
            safety, and previous audits. The QAS require that internal and
            external reviews be performed by personnel who have successfully
            completed the FBI’s training course for conducting such reviews.

       12
            The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.



                                           - 15 -
             As permitted by GAS 7.42 (2007 revision), we generally relied on
             the results of the Laboratory’s external laboratory reviews to
             determine if the Laboratory complied with the QAS. 13 In order to
             rely on the work of non-auditors, GAS requires that we perform
             procedures to obtain sufficient evidence that the work can be relied
             upon. Therefore, we: (1) obtained evidence concerning the
             qualifications and independence of the individuals who conducted
             the review and (2) determined that the scope, quality, and timing
             of the audit work performed was adequate for reliance in the
             context of the current audit objectives by reviewing the evaluation
             procedure guide and resultant findings to understand the methods
             and significant assumptions used by the individuals conducting the
             reviews. Based on this work, we determined that we could rely on
             the results of the Laboratory’s external laboratory review.

        •    Interviewed Laboratory officials to identify management controls,
             Laboratory operational policies and procedures, Laboratory
             certifications or accreditations, and analytical information related to
             DNA profiles.

        •    Toured the Laboratory to observe facility security measures as well as
             the procedures and controls related to the receipt, processing,
             analyzing, and storage of forensic evidence and convicted offender
             DNA samples.

        •    Reviewed the Laboratory’s written policies and procedures related to
             conducting internal reviews, resolving review findings, expunging
             DNA profiles from NDIS, and resolving matches among DNA profiles
             in NDIS.

        •    Reviewed supporting documentation for 10 of 861 NDIS matches to
             determine whether they were resolved in a timely manner. The
             Laboratory provided the universe of 861 NDIS matches as of
             October 7, 2010. The sample was judgmentally selected to include
             both case-to-case and case-to-offender matches. This non-statistical
             sample does not allow projection of the test results to all matches.


        13
            We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.



                                            - 16 -
     •   Reviewed supporting documentation to determine whether the
         Laboratory provided adequate vendor oversight.

     •   Reviewed the case files for selected forensic DNA profiles to
         determine if the profiles were developed in accordance with the
         Forensic QAS and were complete, accurate, and allowable for
         inclusion in NDIS.

         We were unable to obtain the forensic profile information directly
         from NDIS because of the large number of profiles involved and
         because FBI management controls at the NDIS level prohibit the
         dissemination of information in an electronic format. Therefore,
         working in conjunction with the contractor used by the FBI to
         maintain NDIS and the CODIS software, the Laboratory provided us
         with an electronic file identifying the 4,510 STR forensic profiles the
         Laboratory had uploaded to NDIS as of September 22, 2010. We
         verified that the total number of the Laboratory’s profiles per the
         NDIS Custodian agreed with the number of profiles we received from
         the Laboratory. Because the total numbers agreed, we considered
         this universe of profiles to be representative of the Laboratory’s
         profiles contained in NDIS. We limited our review to a sample of
         100 profiles. This sample size was determined judgmentally because
         preliminary audit work determined that risk was not unacceptably
         high.

     •   Using the judgmentally determined sample size, we randomly
         selected a representative sample of labels associated with specific
         profiles in our universe to reduce the effect of any patterns in the list
         of profiles provided to us. However, because the sample size was
         judgmentally determined, the results obtained from testing this
         limited sample of profiles may not be projected to the universe of
         profiles from which the sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                      - 17 -
                                                                APPENDIX II

                             AUDIT CRITERIA


      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS operational procedures.

      •   DNA Data Acceptance Standards
      •   DNA Data Accepted at NDIS
      •   QAS Audits
      •   NDIS DNA Auto searches
      •   Confirm an Interstate Candidate Match
      •   General Responsibilities
      •   Initiate and Maintain a Laboratory’s Participation in NDIS
      •   Security Requirements
      •   CODIS Users
      •   CODIS Administrator Responsibilities
      •   Access to, and Disclosure of, DNA Records and Samples
      •   Upload of DNA Records
      •   Expunge a DNA Record

Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards QAS: QAS for
Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);
and QAS for DNA Databasing Laboratories, effective July 1, 2009 (Offender
QAS). The Forensic QAS and the Offender QAS describe the quality
assurance requirements that the Laboratory should follow to ensure the
quality and integrity of the data it produces.




                                     - 18 -
       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

      •   Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
          have a facility that is designed to ensure the integrity of the
          analyses and the evidence.

      •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
          follow a documented evidence control system to ensure the integrity
          of physical evidence. Where possible, the laboratory shall retain or
          return a portion of the evidence sample or extract.

      •   Sample Control (Offender QAS 7.1): The laboratory shall have and
          follow a documented sample inventory control system to ensure the
          integrity of database and known samples.

      •   Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
          laboratory shall monitor the analytical procedures using [appropriate]
          controls and standards.

      •   Review (Forensic QAS 12.1): The laboratory shall conduct
          administrative and technical reviews of all case files and reports to
          ensure conclusions and supporting data are reasonable and within
          the constraints of scientific knowledge.

          (Offender QAS Standard 12.1): The laboratory shall have and follow
          written procedures for reviewing DNA records and DNA database
          information, including the resolution of database matches.

      •   Reviews (Forensic QAS and Offender QAS 15.1 and 15.2): The
          laboratory shall be audited annually in accordance with the QAS. The
          annual audits shall occur every calendar year and shall be at least
          6 months and no more than 18 months apart.
          At least once every 2 years, an external audit shall be conducted by
          an audit team comprised of qualified auditors from a second
          agency(ies) and having at least one team member who is or has
          been previously qualified in the laboratory’s current DNA
          technologies and platform.




                                      - 19 -
     •   Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A
         vendor laboratory performing forensic and database DNA analysis
         shall comply with these Standards and the accreditation requirements
         of federal law.

         Forensic QAS 17.4: An NDIS participating laboratory shall have and
         follow a procedure to verify the integrity of the DNA data received
         through the performance of the technical review of DNA data from a
         vendor laboratory.

         Offender QAS Standard 17.4: An NDIS participating laboratory shall
         have, follow, and document appropriate quality assurance procedures
         to verify the integrity of the data received from the vendor
         laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

     •   Completeness of DNA Profiles: A profile must include each value
         returned at each locus for which the analyst obtained results. Our
         rationale for this standard is that the probability of a false match
         among DNA profiles is reduced as the number of loci included in a
         profile increases. A false match would require the unnecessary use
         of laboratory resources to refute the match.

     •   Accuracy of DNA Profiles: The values at each locus of a profile
         must match those identified during analysis. Our rationale for this
         standard is that inaccurate profiles may: (1) preclude DNA profiles
         from being matched and, therefore, the potential to link convicted
         offenders to a crime or to link previously unrelated crimes to each
         other may be lost; or (2) result in a false match that would require
         the unnecessary use of laboratory resources to refute the match.

     •   Timely Notification of Law Enforcement When DNA Profile Matches
         Occur in NDIS: Laboratories should notify law enforcement
         personnel of NDIS matches within 2 weeks of the match
         confirmation date, unless there are extenuating circumstances. Our
         rationale for this standard is that untimely notification of law
         enforcement personnel may result in the suspected perpetrator
         committing additional, and possibly more egregious, crimes if the
         individual is not deceased or already incarcerated for the
         commission of other crimes.


                                    - 20 -
                                                              APPENDIX III

                         AUDITEE RESPONSE


      We provided a copy of the draft report to the Ohio Bureau of Criminal
Identification and Investigation. However, during the exit conference,
Laboratory officials indicated that they would not be providing a response to
the report.




                                    - 21 -
                                                                                     APPENDIX IV

        FEDERAL BUREAU OF INVESTIGATION RESPONSE

                                                             U.S. Department of Justice

                                                             Federal Bureau of Investigation



                                                             Washington, D.C. 20535-0001

                                                             September 28, 2011
Carol S. Taraszka
Regional Audit Manager
Chicago Regional Audit Office
Office of the Inspector General
500 West Madison Street, Suite 3510A
Chicago, IL 60661-2590


Dear Ms. Taraszka:

               Your memorandum to Director Mueller forwarding the draft audit report for the
Ohio Bureau of Criminal Identification and Investigation, London, Ohio (Laboratory), has been
referred to me for response.

                Your draft report contained no recommendations relating to the Laboratory's
compliance with the FBI’s Memorandum of Understanding and Quality Assurance Standards
DNA Testing Laboratories and DNA Databasing Laboratories. The CODIS Unit reviewed the
draft report and since it appears that the Laboratory is in compliance with NDIS participation
requirements, the CODIS Unit has no significant comments to provide about the draft report.

                Thank you for sharing the draft audit report with us. If you have any questions,
please feel free to contact Jennifer Luttman, Chief of the CODIS Unit, at (703) 632-8315.

                                                      Sincerely,

                                                             //s//

                                                      Alice R. Isenberg, Ph.D
                                                      Section Chief
                                                      Biometrics Analysis Section
                                                      FBI Laboratory




                                             - 22 -
